February 5, 2020
VIA ELECTRONIC FILING
Hon. Scott S. Harris, Clerk of Court
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
RE:

Retail Ready Career Center, Inc. v. United States of America
No. 19-970

Dear Mr. Harris:
As counsel of record for Petitioner Retail Ready Career Center, Inc. in the above-captioned
case, I am writing to grant blanket consent to the filing of amicus curiae briefs in this case. This
consent applies without regard to the position taken or the party being supported by the brief.
Sincerely,

Jack G. B. Ternan
Counsel for Petitioner
cc:

Noel J. Francisco, Counsel for Respondent
(via email: SupremeCtBriefs@USDOJ.gov)

1400 Preston Road | Suite 400 | Plano, Texas 75093
Phone: 972-665-9939 | Facsimile: 972-476-1361 | www.ternanlawfirm.com

